                                              OFFICE OF JOB CORPS



Office of Inspector General—Office of Audit




                                              PERFORMANCE AUDIT OF APPLIED
                                              TECHNOLOGY SYSTEMS, INCORPORATED
                                              (ATSI) JOB CORPS CENTERS




                                                                          Date: September 30, 20808
                                                                    Report Number: 26-08-005-01-370
U.S. Department of Labor                              September 2008
Office of Inspector General
Office of Audit                                       PERFORMANCE AUDIT OF APPLIED
                                                      TECHNOLOGY SYSTEMS, INCORPORATED
                                                      (ATSI) JOB CORPS CENTERS
BRIEFLY…                                              for $158,754 in billed expenses; and Detroit and
Highlights of Report Number 26-08-005-01-370,         Cleveland did not ensure expense reports agreed
Performance Audit of Applied Technology               with amounts billed to Job Corps. Additionally,
Systems, Incorporated (ATSI) Job Corps Centers        Detroit did not follow Federal procurement
to the National Director, Office of Job Corps.        requirements for full and open competition when
                                                      awarding 10 of the 11 subcontracts reviewed. The
WHY READ THE REPORT                                   10 subcontracts awarded without competition
                                                      totaled $519,889. As such, Detroit could not
This report discusses weaknesses in controls over     provide assurance that contracted goods and
financial management and performance reporting        services were obtained at costs most favorable to
at two Job Corps centers operated by ATSI.            Job Corps.

WHY OIG CONDUCTED THE AUDIT                           Our review of attendance records for 45
                                                      judgmentally selected students separated from
Our audit objectives were to answer the following     Detroit during July 2005 through August 2006
three questions:                                      showed that 8 students (18 percent) were not
                                                      recorded as Absent Without Leave (AWOL) as
   1. Did ATSI ensure compliance with Job             required; and did not document staff attempts to
      Corps requirements for managing and             contact the AWOL students to facilitate their return
      reporting financial activity?                   to the center. Detroit also overstated Student On-
                                                      Board Strength (OBS), a measure of a center’s
   2. Did ATSI ensure compliance with Job             ability to operate at full capacity. Three (7 percent)
      Corps requirements for reporting                of the 45 students reviewed were not separated on
      performance?                                    the correct date and were incorrectly reported in
                                                      the center’s OBS calculation.
   3. Was a hotline complaint alleging
      irregularities in payroll, General Education    In regards to the hotline complaint, we concluded
      Development (GED) testing, and plumbing         that the three allegations did not have merit.
      maintenance at ATSI’s Detroit Job Corps
      Center valid?                                   WHAT OIG RECOMMENDED
                                                      We made seven recommendations to the National
READ THE FULL REPORT                                  Director, Office of Job Corps. In summary, our
                                                      recommendations were to require ATSI to provide
To view the report, including the scope,              support for unsupported costs billed to Job Corps
methodology, and full agency response, go to:         and recover any amount determined to be
http://www.oig.dol.gov/public/reports/oa/2008/26-     unsupported; and direct ATSI to develop and
08-005-01-370.pdf                                     implement procedures to ensure its centers
                                                      comply with Job Corps and contract requirements
WHAT OIG FOUND                                        for journal entries, expense reports and billings,
                                                      subcontracting, and AWOL.
ATSI did not ensure compliance with Job Corps
requirements for reporting financial activities and   HOW AUDITEE RESPONDED
performance for the Cleveland Job Corps Center        The National Director, Office of Job Corps
(Cleveland) in Cleveland, Ohio and Detroit Job        concurred with the report’s findings and
Corps Center (Detroit) in Detroit, Michigan.          recommendations for improvement.

Detroit did not have required supporting
documentation or center management approvals
                  U.S. Department of Labor – Office of Inspector General




ATSI’s Three Job Corps Center Locations
                 (2008)


                                    Cleveland
                    Detroit




                                                  Jacksonville




                              Performance Audit of ATSI Job Corps Centers
                                        Report Number: 26-08-005-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                       Performance Audit of ATSI Job Corps Centers
                                 Report Number: 26-08-005-01-370
                                                            U.S. Department of Labor – Office of Inspector General




Table of Contents

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 5

         Objective 1 - Did ATSI ensure compliance with Job Corps requirements
            for managing and reporting financial activity? ................................................. 6

         Objective 2 – Did ATSI ensure compliance with Job Corps requirements
            for reporting performance?............................................................................ 10

         Objective 3 – Was a hotline complaint alleging irregularities in payroll,
            General Education Development (GED) testing, and plumbing
            maintenance at ATSI’s Detroit Job Corps Center valid? ............................... 13

Appendices.................................................................................................................. 15

         A. Background .................................................................................................... 17

         B. Objectives, Scope, Methodology, and Criteria ............................................... 19

         C. Acronyms and Abbreviations ......................................................................... 23

         D. Job Corps Response to Draft Report ............................................................. 25




                                                                       Performance Audit of ATSI Job Corps Centers
                                                                                 Report Number: 26-08-005-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                       Performance Audit of ATSI Job Corps Centers
                                 Report Number: 26-08-005-01-370
                                           U.S. Department of Labor – Office of Inspector General




Executive Summary
The Office of Inspector General (OIG) conducted a performance audit of Applied
Technology Systems, Incorporated (ATSI). ATSI is under contract with Job Corps to
operate three Job Corps centers for the Department of Labor. In addition, in response
to a hotline complaint, we added an objective to determine the validity of allegations that
Detroit Job Corps Center officials improperly reported payroll expenses, improperly
conducted GED testing, and did not address plumbing deficiencies.

The audit objectives were to answer the following questions:

   1. Did ATSI ensure compliance with Job Corps requirements for managing and
      reporting financial activity?

   2. Did ATSI ensure compliance with Job Corps requirements for reporting
      performance?

   3. Was a hotline complaint alleging irregularities in payroll, General Education
      Development (GED) testing, and plumbing maintenance at ATSI’s Detroit Job
      Corps Center valid?

This report includes the results of our audit of the ATSI operation of the Cleveland Job
Corps Center (Cleveland) in Cleveland, Ohio; (Report No. 26-07-003-01-370); and the
Detroit Job Corps Center (Detroit) in Detroit, Michigan.

Results

ATSI did not ensure compliance with Job Corps requirements for managing and
reporting financial activity. Detroit did not have required supporting documentation or
center management approvals for $158,754 in billed expenses; and Detroit and
Cleveland did not ensure expense reports agreed with amounts billed to Job Corps.
Additionally, Detroit did not follow Federal procurement requirements for full and open
competition when awarding 10 of the 11 subcontracts reviewed. The 10 subcontracts
awarded without competition totaled $519,889. As such, Detroit could not provide
assurance that contracted goods and services were obtained at costs most favorable to
Job Corps.

ATSI also did not ensure compliance with Job Corps requirements for
performance reporting was always followed. Our review of attendance records
for 45 judgmentally selected students separated from Detroit during July 2005
through August 2006 showed that 8 students (18 percent) were not recorded as
Absent Without Leave (AWOL) as required. Detroit also did not document staff
attempts to contact the AWOL students to facilitate their return to the center.
Detroit also overstated Student On-Board Strength (OBS), a measure of a
center’s ability to operate at full capacity. Three (7 percent) of the 45 students

                                                   Performance Audit of ATSI Job Corps Centers
                                             1               Report Number: 26-08-005-01-370
                                          U.S. Department of Labor – Office of Inspector General


reviewed were not separated on the correct date and were incorrectly reported in
the center’s OBS calculation.

These conditions occurred because ATSI’s controls over center financial
management and financial and performance reporting need management
attention. We attributed weaknesses to not following established center
procedures, lack of training, and an ineffective ATSI quality assurance reviews.
The lack of controls in financial management and performance reporting
undermines the programs integrity and accountability in ensuring that Job Corps
meets it objectives. Inaccurate financial and performance data impacts
operational and funding decisions made by ATSI, Job Corps, and Congress.

In regards to the hotline complaint, we concluded that the three allegations did not have
merit.

Recommendations

Our report contains seven recommendations to the National Director, Office of Job
Corps. The recommendations are summarized as follows:

      Request ATSI provide support for unsupported costs billed to Job Corps and
       based on a review of the support, recover any amount determined to be
       unsupported.

      Direct ATSI to develop and implement procedures to ensure its centers comply
       with Job Corps and contract requirements in the following areas:

          o   Journal Entries, Expense Reports, and Billings.
          o   Competition in Subcontracting.
          o   Temporary Duty Status Classifications.
          o   Contacting AWOL Students.


Job Corps Response

The National Office of Job Corps concurred with the reported findings and
recommendations. The Job Corps Regional Office, Chicago, Region V will coordinate
with ATSI to request their written concurrence, nonoccurrence, or concurrence in part to
the reported findings and recommendations as related to Cleveland and Detroit.
Further, the Job Corps Regional Office will provide a plan of action and milestones for
completing the planned ATSI actions to address the reported recommendations. In the
interim, Job Corps Regional Offices will stay in communication with ATSI to coordinate
a written response including a plan of action and milestone(s), which should be
forwarded to the OIG no later than October 17, 2008.

The Office of Job Corps, Regional Office, in coordination with the Regional Contracting
Officer, will recover any dollar amount determined to be unsupported or overpaid;

                                                  Performance Audit of ATSI Job Corps Centers
                                            2               Report Number: 26-08-005-01-370
                                         U.S. Department of Labor – Office of Inspector General


provide support for the $158,754 in unsupported journal entries and reconcile the
expense reports submitted under ATSI contract to the billed amounts, assess whether
best value was obtained for the sole-source purchases noted in this report; and review
the overstated On-Board Strengths at Detroit in regards to assessing liquidated
damages to determine if this action is cost effective.

OIG Conclusion

The OIG agrees that the Job Corps planned corrective actions were appropriate to our
recommendations. Job Corps will coordinate with the ATSI to obtain a plan of action
and milestones for each of our seven recommendations. At this time, we consider
those recommendations as unresolved. We will resolve the recommendations after the
Office of Job Corps provides documentation showing the ATSI has developed a plan of
corrective actions and milestones. To close these recommendations, the Office of Job
Corps needs to provide documentation showing Job Corps and ATSI’s planned
corrective actions have been completed.




                                                 Performance Audit of ATSI Job Corps Centers
                                           3               Report Number: 26-08-005-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                       Performance Audit of ATSI Job Corps Centers
                4                Report Number: 26-08-005-01-370
                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


September 30, 2008


                        Assistant Inspector General’s Report



Dr. Esther R. Johnson
National Director
Office of Job Corps
US Department of Labor
200 Constitution Avenue, N.W
Washington, D.C. 20210


The Office of Inspector General (OIG) conducted a performance audit of Job Corps
centers operated by Applied Technology Systems, Incorporated (ATSI). ATSI is a
privately held Corporation under contract to operate three Job Corps centers for the
Department of Labor. Job Corps requires center operators to establish procedures and
conduct periodic center audits to ensure data integrity, accountability, and prevention of
fraud and program abuse.

Our audit objectives were to answer three questions:

   1. Did ATSI ensure compliance with Job Corps requirements for managing and
      reporting financial activity?

   2. Did ATSI ensure compliance with Job Corps requirements for reporting
      performance?

   3. Was a hotline complaint alleging irregularities in payroll, General Education
      Development (GED) testing, and plumbing maintenance at ATSI’s Detroit Job
      Corps Center valid?

Results and Findings

ATSI needs to improve corporate oversight of its centers. Centers did not comply with
Job Corps requirements for managing and reporting financial activity and for reporting
performance. The lack of controls in financial management and performance reporting
undermines the programs integrity and accountability in ensuring that Job Corps meets
it objectives. Inaccurate financial and performance data impacts management decision
making, reimbursed operating expenses, bonus and incentive payments, and option
years awarded to contracted center operators. Regarding the hotline complaint, we
concluded the three allegations did not have merit.

                                                      Performance Audit of ATSI Job Corps Centers
                                             5                  Report Number: 26-08-005-01-370
                                          U.S. Department of Labor – Office of Inspector General




This report reflects the audit work conducted at ATSI’s headquarters in Cleveland, Ohio,
and at two Job Corps Centers operated by ATSI (Cleveland, Ohio and Detroit
Michigan). We reviewed financial and performance data for the period July 1, 2004,
through August 31, 2006, except where noted in the report.

We previously issued a report concerning our work at the Cleveland Job Corps Center
(Report No. 26-07-003-01-370, dated September 28, 2007). That report discussed
financial issues and contained six recommendations to the National Director of Job
Corps for corrective action. The National Director concurred with our finding and
recommendations.

Additional background information is contained in Appendix A.

We conducted this performance audit in accordance with the Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our audit scope, methodology, and criteria are detailed in Appendix B.

Objective 1 - Did ATSI ensure compliance with Job Corps requirements for
managing and reporting financial activity?

Finding 1 – ATSI did not ensure compliance with Job Corps requirements for
managing and reporting financial activity.

Financial management and reporting for Detroit and Cleveland were inadequate.
Detroit did not have required supporting documentation or center management
approvals for $158,754 in billed expenses; and Detroit and Cleveland did not ensure
expense reports agreed with amounts billed to Job Corps. Additionally, Detroit did not
follow Federal procurement requirements for full and open competition when awarding
10 of the 11 subcontracts we reviewed. The 10 subcontracts awarded without
competition totaled $519,889. As such, Detroit could not provide assurance that
contracted goods and services were obtained at costs most favorable to Job Corps.

These conditions occurred because ATSI’s controls over financial management and
reporting need management attention. We attributed weaknesses to not following
established procedures, lack of training, and inadequate oversight.

Billed Expenses Were Not Supported

We questioned $158,754 in costs for journal entries in Detroit’s General Ledger that did
not have supporting documentation or approvals by center management. We tested a
non-statistical sample of 15 journal entries from Detroit’s General Ledger Detail Reports
for three months (July 2005, January 2006, and August 2006). None of the 15 Journal


                                                  Performance Audit of ATSI Job Corps Centers
                                            6               Report Number: 26-08-005-01-370
                                          U.S. Department of Labor – Office of Inspector General


Entries were supported by documentation explaining the reason for the entry nor was
there evidence of approval by center management. For example, on August 31, 2006,
ATSI made a $37,129 adjusting journal entry in the account for Social Skills Personnel.
This adjustment increased the expense reported for Detroit by $37,129. However, ATSI
provided no documentation to support the adjustment. The net effect of the
unsupported journal entries resulted in questionable costs of $158,754.

The total value for all journal entries for the three months we reviewed totaled $2.3
million. The 15 journal entries tested may have had offsetting journal entries. However,
we were unable to perform additional tests to verify this. Despite numerous requests,
ATSI did not provide us with the additional information needed to complete the testing.
Without assurance that journal entries are valid, Job Corps may have paid ATSI more
than necessary for services provided at Detroit.

The lack of supporting documentation and management approvals occurred because
ATSI did not place sufficient emphasis on compliance with its own policies and
procedures. Detroit’s Standing Operating Procedure (SOP 570.4) requires that all
records of entry in the Corporate Financial System must have support documents,
which adequately describe the expenditure or receipt for such entries and bear the
required approval signatures. The SOP also requires that files will be maintained and
designed for timely retrieval of all documents to support financial transactions.
Additionally, support and approval for journal entries was not covered in ATSI’s Quality
Assurance and Compliance (QAC) policy, nor was it included as part of ATSI’s
corporate reviews.

Detroit and Cleveland Did Not Ensure Expense Reports Agreed to Billings

Detroit and Cleveland also did not ensure expense reports agreed with the amounts
billed to Job Corps. The Job Corps Policy and Requirements Handbook (PRH),
Chapter 5, Appendix 502 states that vouchers submitted for payment by contractors
must include only those amounts actually paid by the Job Corps center and amounts
earned by and due to the contactor. The PRH further states that the amounts reported
as Vouchered Reimbursable Expenses on the expense reports must agree with the
month-end vouchers.

We reviewed the controls used by each center to ensure accurate expense reports and
billings and found that the expense reports and billed amounts were not reconciled. As
such, the centers could not provide reasonable assurance that expense reports were
accurate and Job Corps was not overbilled. The reconciliations should also be
performed timely because monies overpaid, if recovered too late, may not be used by
the Job Corps Program, but instead must be deposited into the US Treasury General
Collection Account.

In our report on Cleveland, we discussed the weaknesses as to why the expense
reports and billings were not reconciled. Primarily, we found weakness in training
regarding monitoring costs and other financial-related activities. We made


                                                  Performance Audit of ATSI Job Corps Centers
                                            7               Report Number: 26-08-005-01-370
                                           U.S. Department of Labor – Office of Inspector General


recommendations for Job Corps to take corrective action and to have ATSI reimburse
Job Corps for any overpayment. Job Corps needs to take similar action pertaining to
any overpayment for Detroit.

Ten Subcontracts Were Awarded Without Competition Totaling $519,889

ATSI did not comply with Federal Acquisition Regulation (FAR) requirements regarding
the promotion of competition in subcontracts it awarded for Detroit, totaling $519,889.
The FAR requires all government agencies to solicit bids for planned purchases over
$2, 500. The government agencies are then required to select the lowest bid from a
qualified vendor or justify selecting a higher bid. Additionally, Detroit’s SOP for Health
Administration – Staffing (Serial No. 6120.1, Section B) requires that all subcontracted
health staff be approved by the Job Corps Regional Office prior to implementation of the
subcontract for services.

We reviewed procurement files for 11 subcontracts for compliance with the FAR and
SOP for Health Administration – Staffing. Five of the subcontracts, totaling $62,517,
were for medical and dental services for the period January 23 through June 30, 2007.
We also judgmentally selected six subcontracts for construction and other services,
totaling $461,973, from ATSI’s Purchase by Account Report, which were awarded
during the period July 1, 2004, thru August 31, 2006. The Purchases by Account
Report contained 8,503 transactions with a total cost of $6,519,022 during this period.

We determined that full and open competition was not provided for 10 of the 11
subcontracts reviewed. Only one subcontract met the FAR requirements regarding sole
source justification and full and open competition. In addition, 5 of the 11 subcontracts
were for medical services. Job Corps approval was not obtained for 3 of the 5
subcontracts. Without adequate competition, there was no assurance that ATSI
obtained subcontracted goods and services at the costs most favorable to Job Corps.

We believe that a lack of adequate oversight and training contributed to the lack of
competition in ATSI’s subcontracting. ATSI’s Procurement Specialist for Detroit could
not explain the reasons for the lack of documentation in the procurement files. The
Procurement Specialist informed us that she had not received any formal training in the
FAR. Instead, her knowledge of procurement procedures was obtained through On-the-
job training provided by the Financial Manager. Additionally, ATSI’s QAC policy,
Section 2.2 Financial Data Integrity, requires the Finance Manager at each ATSI -
operated center to provide regular, documented auditing in collaboration with the
Corporate Director of Finance and Administration to ensure compliance with the FAR,
including purchasing policies and the competitive bid process. However, the Finance
Manager at Detroit informed us that he had not performed reviews of the procurement
area as required by the QAC Policy. Further, ATSI’s corporate assessment of the
Detroit Center done in March 2007 did not provide any indication that the area of
competition in subcontracting was reviewed to ensure compliance with the FAR.




                                                   Performance Audit of ATSI Job Corps Centers
                                            8                Report Number: 26-08-005-01-370
                                          U.S. Department of Labor – Office of Inspector General


Recommendations

We recommend the National Director, Office of Job Corps, require ATSI to:

   1.   Provide support for the $158,754 in unsupported journal entries and reconcile
        the expense reports submitted under the current ATSI contract to the billed
        amounts. Based on a review of the support provided, Job Corps should
        recover any amount determined to be unsupported or overpaid.

   2.   Reimburse the government as appropriate for the $519,889 in subcontracts
        awarded without full and open competition. Also, Job Corps needs to assess
        whether best value was obtained for the sole-source purchases noted in this
        report.

   3.   Establish controls to require journal entries are approved and supported by
        appropriate documentation and expense reports and billings are reconciled.
        These controls should include reviewing these areas as part of ATSI’s Quality
        Assurance and Compliance (QAC) reviews and corporate audits.

   4.   Establish controls to require contracts for goods and services are awarded
        according to FAR requirements. These controls should ensure staff are
        adequately trained and procurement is included as part of ATSI’s QAC reviews
        and corporate audits.

Job Corps Response

The National Office of Job Corps concurs with recommendations 1, 2, 3, and 4. The
Job Corps Regional Office, Chicago, Region V will coordinate with ATSI to request their
written concurrence, non-concurrence, or concurrence in-part to the reported findings
and recommendations as related to Cleveland and Detroit. Further, the Job Corps
Regional Office will provide a plan of action and milestones for completing the planned
ATSI actions to address the reported recommendations. In the interim, Job Corps
Regional Offices will stay in communication with ATSI to coordinate a written response
including a plan of action and milestone(s) which should be forwarded to the OIG no
later than October 17, 2008.

The Office of Job Corps, Regional Office, in coordination with the Regional Contracting
Officer, will recover any dollar amount determined to be unsupported or overpaid;
provide support for the $158,754 in unsupported journal entries and reconcile the
expense reports submitted under ATSI contract to the billed amounts; and assess
whether best value was obtained for the sole-source purchases noted in this report.

OIG Conclusion

The OIG agrees that the Job Corps planned corrective actions were appropriate to our
recommendations. Job Corps will coordinate with the ATSI to obtain a plan of action
and milestones for recommendations 1 through 4. At this time, we consider those

                                                  Performance Audit of ATSI Job Corps Centers
                                           9                Report Number: 26-08-005-01-370
                                           U.S. Department of Labor – Office of Inspector General


recommendations as unresolved. We will resolve the recommendations after the Office
of Job Corps provides documentation showing the ATSI has developed a plan of
corrective actions and milestones. To close the recommendations, the Office of Job
Corps needs to provide documentation showing Job Corps and ATSI’s planned
corrective actions have been completed.

Objective 2 – Did ATSI ensure compliance with Job Corps requirements for
reporting performance?

Finding 2 - ATSI did not ensure compliance with Job Corps requirements for
recording and reporting student attendance.

Detroit did not comply with Job Corps requirements for recording and reporting student
attendance. Detroit improperly used a temporary duty status not recognized by Job
Corps to classify students as present when in fact there was no assurance the students
actually were present. As a result, On-Board Strength (OBS) was overstated, which
resulted in liquidated damages of $1,455. In addition, Detroit did not have any
documentation to show that it attempted to contact students who were Absent Without
Official Leave (AWOL). Such a situation could prevent the center from reducing future
AWOL occurrences.

These conditions occurred because ATSI’s controls over performance reporting need
management attention. We attribute weaknesses to not following established center
procedures, lack of training, and an ineffective ATSI quality assurance reviews.

Detroit Improperly Used a Temporary Duty Status Not Recognized by Job Corps

The Detroit Center used a temporary duty status—Temporarily Unaccounted For
(TUF)—to permanently record students as present for duty, even though there was no
documentation to show the student were actually present for duty.

The PRH Chapter 6 (Administrative Support), Section 6.1 (Student Attendance, Leave,
and Absences), Requirement R.3. (Unauthorized Absences) requires Job Corps
Centers to identify and report as AWOL:

       •   Any residential student who has failed to report for two consecutive daily
           morning attendance checks.
       •   Any nonresidential student who misses one morning attendance check and
           fails to sign in during the training day, or make contact with the center to
           explain the absence.

Further, the Detroit Center’s SOP requires that if a student fails to sign the morning
attendance report, but the student is present on the center; he or she must sign the
morning attendance report on the following morning to establish him/her present for
duty. If student fails to sign in the second day, the student will be AWOL effective their
first TUF day.

                                                   Performance Audit of ATSI Job Corps Centers
                                            10               Report Number: 26-08-005-01-370
                                           U.S. Department of Labor – Office of Inspector General


Our review of student files for 45 students who had separated from the Detroit Center
during the period July 1, 2005, to August 31, 2006 and had 5 or more occurrences of
being AWOL showed that 8 students were classified as TUF on at least one occurrence
and some students were classified as TUF on several occasions. Even though the
name implies that this was a temporary classification, none of the temporary
classifications were changed to a permanent status.

The Detroit Center did not have any supporting documentation to show that the 8
students were actually present. We attempted to verify whether the students were
actually present for duty on the day the student was reported as TUF (and also the
following day) by reviewing available documentation. None of the documents verified
that the students were present for either the TUF status day or the following day. In
fact, most documentation that should have been available was not. The Detroit
Center’s Records Supervisor told us that an overflow of raw sewage/water within the
building had destroyed most of the documentation needed to determine whether or not
the students were actually present. The Records Supervisor and the Administrative
Director further told us that at the time of the overflow, the documents were stored in
boxes on pallets on the floor in the center’s Records Archive Room. Without
documentation to show the students present, we considered the students to have been
AWOL when they were recorded as TUF and AWOL on the succeeding training day.

Misreporting of duty status can result in inaccurate reporting in the CIS and can result in
over-inflated OBS reporting. The PRH, Chapter 6 Administrative Support dated June
26, 2006, pg. 6.4-3 Section 6.4 (Student Enrollment Requirement, R.4 Separations)
requires Job Corps Centers to separate students when a student exceeds 6
consecutive AWOL days, or exceeds 12 AWOL training days within a 180-day period,
as applicable.

For 3 of the 8 students that had a TUF duty status, we determined that adding the TUF
days to the AWOL days resulted in the 3 students being included in Center’s onboard
strength beyond the dates that the students should have been separated. The 3
students were extended for 28, 29, and 70 days beyond the date they should have been
AWOL separated.

Under the terms of the contract (Contract Number 5-JC-984-26, Section G.6--Liquidated
Damages for Failure to Comply with Regulations for Separating Students), ATSI is
required to provide a refund to the Government for each day a student is retained in
violation of Job Corps requirements. The amount of refund is determined by dividing
the total contract amount for the year ($7,810,175) by the total planned average on-
board strength (280) and that result ($27,893) is further divided by 365 ($76.42) and
multiplied by 15 percent ($11.46) to render the daily calculation of liquidated damages.
For Detroit, the number of days OBS was overstated for the 3 students totaled 127 days
rendering $1,455 in liquidated damages.

This occurred because ATSI had not established procedures to ensure that students
who were classified as TUF were subsequently changed to a permanent duty status, as


                                                   Performance Audit of ATSI Job Corps Centers
                                            11               Report Number: 26-08-005-01-370
                                           U.S. Department of Labor – Office of Inspector General


evidenced by supporting documentation. Further, review of the TUF status was not
included in ATSI’s QAC policy, nor was it covered in ATSI’s assessment of Detroit.

AWOL Students Were Not Contacted

Detroit could not provide adequate assurance that staff attempted to minimize student
AWOL days and separations by contacting AWOL students as required by Job Corps’s
PRH (Chapter 6, Requirement R3) and ATSI’s SOP (Serial No. 610.1). When a student
is AWOL, counselors must attempt to locate and contact the student within 24 hours.
Counselors must also document attempts to contact students in the student’s personnel
file.

Detroit either did not make efforts to contact students who were AWOL to determine
why the students were AWOL, or if they did make efforts, the efforts were not
documented. We used statistical sampling techniques to review 190 student files for
students who had separated from the Detroit Center between July 1, 2005, and August
31, 2006. We estimated with 95 percent confidence level that as many as 146
separated students had at least one occurrence where the student was AWOL and
counselors either did not attempt to contact students or did not document attempts to
contact students. Our estimate was based on randomly selecting 83 student files for
students who had separated for review and determining that 64 of the students had at
least one occurrence where the student was AWOL and attempts to contact the
students were either not made or were not documented.

Detroit did not have a control process to ensure that whenever an AWOL is recorded in
CIS, an attempt is made to contact the student (and parent/guardian or probation/parole
officer, if applicable), and the attempt is documented in the student’s file. Specifically,
the Student Records section did not contact counselors to ensure that AWOL
Occurrence Reports for AWOL students were recorded in student files.

Further, ATSI did not include verification of attempts to contact AWOL students as part
of its data integrity reviews until implementation of its QAC policy, which was effective
July 1, 2006. Subsequent to the implementation of this policy, we did not find any
evidence to show that reviews were made to ensure that attempts were made to contact
AWOL students and the attempts were documented.

Recommendations

We recommend the National Director, Office of Job Corps, require ATSI to:

   5.   Review the overstated On-Board Strength at the Detroit Job Corps Center and
        reimburse Job Corps $1,455 in liquidated damages, if Job Corps determines
        this action to be cost effective.

   6.   Develop procedures for students previously classified as Temporarily
        Unaccounted For (TUF) and change those students to a permanent duty status.


                                                   Performance Audit of ATSI Job Corps Centers
                                            12               Report Number: 26-08-005-01-370
                                          U.S. Department of Labor – Office of Inspector General


        Also, include TUF in ATSI’s Quality Assurance and Compliance (QAC) policy
        when conducting QAC reviews.

   7.   Establish a control process directing counselors to document attempts to
        contact students who are AWOL. Also, execute documentation reviews over
        contacted students who are AWOL when conducting QAC reviews.

Job Corps Response

The National Office of Job Corps concurs with recommendations 5, 6, and 7. The Job
Corps Regional Office, Chicago, Region V will coordinate with ATSI to request their
written concurrence, nonoccurrence, or concurrence in part to the reported findings and
recommendations as related to Detroit. Further, the Job Corps Regional Office will
provide a plan of action and milestones for completing the planned ATSI actions to
address the reported recommendations. In the interim, the Job Corps Regional Office
will stay in communication with ATSI to coordinate a written response including a plan of
action and milestone(s) which should be forwarded to the OIG no later than October 17,
2008.

The Office of Job Corps, Regional Office, in coordination with the Regional Contracting
Officer, will review the overstated On-Board Strengths at Detroit in regards to assessing
liquidated damages to determine if this action is cost effective.

OIG Conclusion

The OIG agrees that the Job Corps planned corrective actions were appropriate to our
recommendations. Job Corps will coordinate with the ATSI to obtain a plan of action
and milestones for recommendations 5 through 7. At this time, we consider those
recommendations as unresolved. We will resolve the recommendations after the
Office of Job Corps provides documentation showing the ATSI has developed a plan of
corrective actions and milestones. To close the recommendations, the Office of Job
Corps needs to provide documentation showing Job Corps and ATSI’s planned
corrective actions have been completed.

Objective 3 – Was a hotline complaint alleging irregularities in payroll, General
Education Development (GED) testing, and plumbing maintenance at ATSI’s
Detroit Job Corps Center valid?

Finding 3 – The allegations contained in the complaint did not have merit.

The hotline complaint alleged that the Detroit Center had not properly reported payroll
expenses, had not properly conducted GED testing, and had not addressed plumbing
deficiencies at the Center. Our audit showed that the Center properly reported payroll
expenses, properly conducted GED testing, and properly followed Department of Labor
Procedures in addressing plumbing deficiencies.



                                                  Performance Audit of ATSI Job Corps Centers
                                           13               Report Number: 26-08-005-01-370
                                          U.S. Department of Labor – Office of Inspector General


Center Officials Properly Reported Payroll Expenses.

We found Center employees’ timesheets were properly authorized and the hours
worked were reasonable compared to the amount they were paid. In addition, for the
employees we tested, we found W-2’s agreed with the list of employees for 2004 and
2005. Also, we found that line items reported on the ETA 2110 Reports agreed with the
Center’s Payroll Direct Labor Distribution reports for various months tested.

Center Officials Properly Conducted GED Testing

We conducted interviews with Center officials and students, toured the GED
examination room, and reviewed safeguards for conducting the GED exam outlined in
the PRH. We found that controls are adequate to ensure that the GED exams are
administered appropriately. In addition we did not find evidence of interference from the
Academic Instructor as alleged.

Center Officials Properly Addressed Plumbing Deficiencies.

We found that Center building experienced damage from faulty plumbing in first floor
offices, records rooms, and some student dorms. The damage done by plumbing
problems affected the carpeting, ceilings, and floors of those areas of the building that
were affected. We found that Detroit officials properly reported building plumbing
deficiencies on numerous occasions in the 2003 and 2006 building facility reports.
However, delays in making repairs occurred due to Job Corps Center building funding
priorities maintained by Office of Job Corps on a national level which is based on a
determined repair priority. As a result, repairs for plumbing deficiencies took over four
years to be addressed by Office of Job Corps. While the Center officials told us Center
had received emergency funding on different occasions to fix the faulty piping it was not
until 2007 an amount of $568,400 was approved by Office of Job Corps to permanently
address the plumbing repairs.




Elliot P. Lewis




                                                  Performance Audit of ATSI Job Corps Centers
                                           14               Report Number: 26-08-005-01-370
             U.S. Department of Labor – Office of Inspector General




Appendices




                     Performance Audit of ATSI Job Corps Centers
              15               Report Number: 26-08-005-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                       Performance Audit of ATSI Job Corps Centers
                16               Report Number: 26-08-005-01-370
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

Job Corps is authorized by Title I-C of the Workforce Investment Act (WIA) of 1998 and
is administered by the Department of Labor, Office of the Secretary, Office of Job
Corps, under the leadership of the National Director, supported by a National Office
staff and a field network of Regional Offices of Job Corps.

The purpose of Job Corps is to assist people ages 16 through 24 who need and can
benefit from a comprehensive program, operated primarily in the residential setting of a
Job Corps Center (JCC), to become more responsible, employable, and productive
citizens.

As a national, primarily residential training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education.

Education, training and support services are provided to students at Job Corps center
campuses located throughout the United States and Puerto Rico. Job Corps Centers
are operated for the U.S. Department of Labor by private companies through
competitive contracting processes, and by other Federal Agencies through inter-agency
agreements.

The WIA legislation authorizing Job Corps requires the Secretary of Labor to provide a
level of review of contractors and service providers over a three year period. The Code
of Federal Regulations (CFR) states all Job Corps centers are to be reviewed over the
three year period. The OIG has taken the lead in providing audit coverage of the
operators and service providers for the Secretary and is using a statistical selection
process of centers to meet the intent of the CFR.

Cleveland and Detroit Job Corps Centers are 2 of the 3 centers operated by ATSI under
contract with the Office of Job Corps. The Cleveland Center has an authorized On –
Board Strength of 320 students and an annual operating budget of approximately $9.8
million. The Detroit Center has an authorized On – Board Strength of 280 students and
an annual operating budget of approximately $7.8 million.

OASAM is responsible for the overall implementation of the Department of Labor’s
procurement program. OASAM provides contracting support to Job Corps and
coordinates with Job Corp to ensure contractors comply with the provisions of the
contracts.




                                                    Performance Audit of ATSI Job Corps Centers
                                             17               Report Number: 26-08-005-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                       Performance Audit of ATSI Job Corps Centers
                18               Report Number: 26-08-005-01-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to answer three questions:

   1.   Did ATSI ensure compliance with Job Corps requirements for managing and
        reporting financial activity?

   2.   Did ATSI ensure compliance with Job Corps requirements for reporting
        performance?

   3.   Was a hotline complaint alleging irregularities in payroll, General Education
        Development (GED) testing, and plumbing maintenance at ATSI’s Detroit Job
        Corps Center valid?

Scope

Our audit generally covered the financial and performance reporting at the Cleveland
and Detroit Job Corps Centers. Our testing was performed at the two Centers and at
Applied Technology Systems, Inc. (ATSI), headquarters located in Cleveland, Ohio. In
addition, our audit also focused on a complaint against the Detroit Job Corps Center
and ATSI, which fell within our audit period of July 1, 2004 through August 31, 2006.

To accomplish our audit, we examined reported financial and performance activity for
periods from July 1, 2004, through August 31, 2006. As part of our performance audit
for testing of the center’s OBS, the center was unable to provide Morning Accountability
Reports, Dorm Bed Check Rosters, Serialized Rosters for January 1, 2006 thru August
2006. We requested the information from center officials and they could not provide the
documents because of a center flood; some center documents were destroyed.
Therefore, we could not determine if some students were actually on center or if they
returned to the center prior to and after taken center leave,

We examined the following for compliance with applicable laws, regulations, policies
and procedures: financial reporting of center expenses recorded on ETA 2110 reports;
student accountability (by examining absent without leave (AWOL) policy and student
leave deficiencies); student accomplishments for the performance measures of High
School Diplomas/ General Educational Developments (HSD/GED), Vocational Training
Completions; and internal controls applicable to center operations.

During our audit, we used financial data obtained from the general ledger of ATSI. The
reliability of the ATSI computerized data was determined by comparing data in the
general ledger to the 2110 data maintained by the Job Corps Data Center located in
Austin, Texas and performing analysis of selected expenditures and obtaining
supporting documentation for those expenditures. We used performance and
attendance data from the Center Information System (CIS). We examined student

                                                  Performance Audit of ATSI Job Corps Centers
                                           19               Report Number: 26-08-005-01-370
                                         U.S. Department of Labor – Office of Inspector General


folders to verify that each Centers documentation supported performance and
attendance data inputted into the CIS by Center personnel.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS) issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Methodology

To accomplish our audit objectives, we reviewed applicable criteria and compared the
requirements to the reported financial and performance results.

Financial activity was audited using a combination of analytical procedures, staff and
management interviews, and document examinations. We traced selected costs
through the operator’s general ledger and examined vouchers/supporting
documentation to authenticate the recorded transactions. We also examined contract
files in determining whether there was competition in contracting. We reviewed
procurement files for 11 subcontracts for compliance with the FAR and Detroit’s SOP for
Health Administration-Staffing. We reviewed procurement files for five medical and
dental service subcontracts, which were active during fieldwork. The five subcontracts
for services were valued at $62,516.74 for the period January 23 thru June 30, 2007.
We also judgmentally selected six subcontracts for construction and other services
valued at $461,972.63 from ATSI’s Purchase by Account Report, which were awarded
during the period July 1, 2004 thru August 31, 2006. The Purchases by Account Report
contained 8,503 transactions with a total cost of $6,519,021.88 during this period.

For performance measures, we examined student folders to verify documentation
supported student accomplishments recorded in the CIS.
We used a combination of statistical and non-statistical sampling to examine the
performance measures of HSD/GED and Vocational Training Completions. At the
Cleveland Center, for PY 2005, we judgmentally selected 56 of 195 students for testing.
For two months (July and August) of PY 2006, we examined 100 percent of the
HSD/GED and Vocational Training Completions reported by the Center. At the Detroit
Center, we used statistical sampling techniques to select 82 of 190 HSD/GED students
for testing for PY 2005 and 1 HSD student for two months (July & August) of PY2006.
In both samples the students were classified as HSD/GED and Vocational Training
Completers at the center.



                                                 Performance Audit of ATSI Job Corps Centers
                                          20               Report Number: 26-08-005-01-370
                                             U.S. Department of Labor – Office of Inspector General


We tested whether each Center’s leave policy resulted in reasonable leave and we
used the sample selected for the HSD/GED to perform our testing. We used the
assumption that leave would be considered reasonable if the leave was properly
supported in accordance with the PRH.

The Detroit Center used a temporary duty status-Temporarily Unaccounted For (TUF)-
to permanently record students as present for duty, even though there was no
documentation to show the student were actually present for duty. Out of a universe of
190, we selected 45 AWOL students reported on the CIS with an excess of 5 or more
missed training days. We reviewed the centers accountability documentation: Morning
Accountability Report, Student Profiles, Dorm Bed Check Rosters, etc., and found 8
students who had been placed in TUF status and did not return to the center the
following day.

In order to test students in AWOL status, we analyzed student accountability documents
which were used by the ATSI officials to monitor each Center’s operations. We
reviewed each report to identify those students who were shown on the report in
violation of the 6-and 12-day AWOL policy without being separated as required by the
PRH. For students who were AWOL, we examined student folders to determine if
attempts were made to contact the students.

We found that Detroit either did not make efforts to contact students who were AWOL to
determine why the students were AWOL, or if they did make efforts, the efforts were not
documented. Out of a universe of 190, we randomly selected 83 student files for
students who had separated for review and determined that 64 of the students had at
least one occurrence where the student AWOL and attempts to contact the student
were either not made or were not documented.

In evaluating the complaint against the Detroit Center, we:

    •   Tested amounts reported on the 2110 reports for Detroit JCC payroll against the
        Detroit JCC payroll Direct Labor Distribution reports. We also verified
        timesheets for the tested employees were verified against the Direct Labor
        Distribution reports to ensure that the employees worked the hours that were
        claimed, and we verified W-2’s amounts for the tested Detroit JCC employees
        against the Direct Labor Distribution amounts.

    •   Conducted interviews with Center officials responsible for the GED exam, and
        students who had taken the exam. We also toured the facilities where the exam
        was held and examined controls applicable to GED testing.

    •   Interviewed officials at the Detroit Center and Office of Job Corps facility officials
        were concerning plumbing issues, inspected areas of the facility in need of
        repair, reviewed facility survey reports, and reviewed criteria for requesting
        funding and reviewed documentation that Detroit Center officials used to request
        funding for the needed repairs.

                                                     Performance Audit of ATSI Job Corps Centers
                                              21               Report Number: 26-08-005-01-370
                                           U.S. Department of Labor – Office of Inspector General


In our internal control analysis, we relied on our assessment of the control environment
of ATSI management and Center management to determine the reliance we would
place on internal control. Based on that assessment, we decided to rely on analytical
and document examination using substantive audit procedures rather than testing of
controls. Our testing of internal controls was focused only on the controls related to the
audit objectives.


Principal Criteria

We used the following criteria to perform this audit:

   •   Federal Acquisition Regulation
   •   Job Corps Policy and Requirements Handbook
   •   ATSI’s Quality Assurance and Compliance Policy
   •   Cleveland and Detroit Job Corps Center Standard Operating Procedures




                                                   Performance Audit of ATSI Job Corps Centers
                                            22               Report Number: 26-08-005-01-370
                                      U.S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms and Abbreviations

ATSI            Applied Technology Systems, Incorporated

AWOL            Absent Without Leave

CFR             Code of Federal Regulations

CIS             Center Information System

COTR            Contracting Officer’s Technical Representative

DOL             Department of Labor

FAR             Federal Acquisition Regulation

HSD/GED         High School Diplomas/ General Educational Development

JCC             Job Corps Center

MAC             Morning Accountability Check Report

OA              Office of Audit

OBS             On-board Strength

OIG             Office of Inspector General

QAC             Quality Assurance and Compliance

PRH             Policy and Requirements Handbook

PY              Program Year

SOP             Standard Operating Procedure

TUF             Temporarily Unaccounted For

WIA             Workforce Investment Act




                                              Performance Audit of ATSI Job Corps Centers
                                       23               Report Number: 26-08-005-01-370
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                       Performance Audit of ATSI Job Corps Centers
                24               Report Number: 26-08-005-01-370
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix D
Job Corps Response to Draft Report




                                             Performance Audit of ATSI Job Corps Centers
                                      25               Report Number: 26-08-005-01-370
                                   U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210




                                           Performance Audit of ATSI Job Corps Centers
                                    26               Report Number: 26-08-005-01-370
